2311 Douglas Street
Omaha, Nebraska 68102-1214

iOOCKLE
Legal Briefs

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefe.com
No.
TIMOTHY P. MURPHY,
Petitioner,
v.
SUSAN STACY,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawfiil age, being duly sworn, upon my oath state that I did, on the 25th day of November, 2020, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
TIMOTHY P. MURPHY
905 Northern Dancer Way, #101
Casselberry, FL 32707
(407) 913-3680
timmleocf@live.com
Petitioner, appearing pro se

Subscribed and sworn to before me this 25th day of November, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOIARY-State of Nrtraska
II
RENEE J. GOSS

My Comm. Exp. Septembers, 2023

Notary Public

V

Affiant

40120

Bilal Ahmed Faruqui
Senior Assistant Attorney General
General Civil Litigation Division
State Programs Bureau
PL-01 The Capitol
Tallahassee, FL 32399-1050
850-414-3757
Bilal.Faruqui@mvfloridalegal.com

